CERTIFICATE OF COMPLIANCE
Case No. 19-783
Caption: Van Buren u. United States of America
As required by Supreme Court Rule 33.l(h),
I certify that the document contains 5,798 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).

I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 7,2020.

Sworn to before me on
July 7, 2020
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366

23

Notary Public

